                                     SOCIAL SECURITY
MEMORANDUM
Date:   August 3, 2009                                                  Refer To:

To:     The Commissioner

From:   Inspector General

Subject: Quick Response Evaluation: Office of Disability Adjudication and Review Management
        Information (A-07-09-29162)


        The attached final report presents the results of our review. Our objective was to
        evaluate the Office of Disability Adjudication and Review’s current management
        information and Information Technology Advisory Board proposals related to
        management information.

        If you wish to discuss the final report, please call me or have your staff contact
        Steven L. Schaeffer, Assistant Inspector General for Audit, at (410) 965-9700.




                                                         Patrick P. O’Carroll, Jr.

        Attachment
    QUICK RESPONSE
     EVALUATION
Office of Disability Adjudication and
 Review Management Information

            A-07-09-29162




              August 2009
                                    Mission
By conducting independent and objective audits, evaluations and investigations,
we inspire public confidence in the integrity and security of SSA’s programs and
operations and protect them against fraud, waste and abuse. We provide timely,
useful and reliable information and advice to Administration officials, Congress
and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

   Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
   Promote economy, effectiveness, and efficiency within the agency.
   Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
   Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
   Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:

   Independence to determine what reviews to perform.
   Access to all information necessary for the reviews.
   Authority to publish findings and recommendations based on the reviews.

                                     Vision
We strive for continual improvement in SSA’s programs, operations and
management by proactively seeking new ways to prevent and deter fraud, waste
and abuse. We commit to integrity and excellence by supporting an environment
that provides a valuable public service while encouraging employee development
and retention and fostering diversity and innovation.
                                                                    Background
OBJECTIVE
The objective of our review was to evaluate the Office of Disability Adjudication and
Review’s (ODAR) current management information (MI) and Information Technology
Advisory Board (ITAB) proposals1 related to MI.

BACKGROUND
At the end of May 2009, over 750,000 hearings were pending in ODAR, and the
average processing time was 494 days. As outlined in its Fiscal Year (FY) 2008-2013
Strategic Plan, the Social Security Administration (SSA) plans to reduce the number of
pending hearings to a desired level of 466,000 and the average processing time to
270 days by FY 2013. According to SSA, a pending level of 466,000 hearings ensures
a sufficient number of cases to maximize the efficiency of the hearings process.

The Acting Deputy Commissioner of SSA asked that we evaluate the impact of ODAR’s
current MI and ODAR’s proposals on its ability to reduce the backlog to the desired
pending level. To address his request, we

      examined the workload ODAR would need to complete to process projected hearing
       requests and reduce the backlog to the desired pending level by FY 2013;
      identified MI currently available for officials to manage ODAR’s workload, any
       reported shortfalls in available MI, and any reported shortfalls in the use of the MI to
       manage effectively; and
      reviewed ODAR’s proposals, along with their potential impact on (1) addressing any
       shortfalls in ODAR’s existing MI and (2) the likelihood SSA will meet its goal of
       reducing the backlog to the desired pending level by FY 2013.2

SSA’s information technology (IT) planning is an on-going process that evaluates
existing and new IT initiatives to ensure SSA is fulfilling its strategic goals and
objectives. All IT projects start as IT proposals. The IT proposal is a plan to invest
SSA’s IT resources and is the primary tool for describing the scope of an IT project.
ITAB uses available IT resources, its knowledge of SSA’s priorities and strategic goals,
and its understanding of executive interest, to provide guidance and approval for how
SSA will invest IT resources. The Agency’s ITAB, chaired by the Chief Information
Officer and comprised of the Deputy Commissioner of SSA, all Deputy Commissioners
for the business components, and other executive staff, is the governing body for the
Agency’s IT investment decisions.

1
    Throughout this report we refer to these as “proposals.”

2
    See Appendix B for the Scope and Methodology for our review.


ODAR Management Information (A-07-09-29162)                                                   1
                                                          Results of Review
Regardless of whether the FY 2010 proposals are approved, it appears SSA will
achieve the desired pending hearings level by FY 2013 based on the currently projected
level of receipts. Specifically, if SSA follows its current administrative law judge (ALJ)
hiring plan and the current average ALJ productivity level remains constant, ODAR’s
pending hearing level should fall below 466,000. However, the timing of ALJ hiring will
impact ODAR’s ability to achieve this desired pending level. Therefore, SSA should
continue to work with the Office of Personnel Management (OPM) to ensure ALJs are
hired within the planned time frames.

According to interviews with ODAR regional management officials, sufficient MI is
available to monitor hearing office and employee productivity. However, there are
inefficiencies that need to be addressed. Staff in the ODAR regional offices we
interviewed identified shortfalls in existing MI and suggested improvements to use MI
more efficiently. To overcome some of these shortfalls, the regional offices create
additional manual reports that allow them to better manage the hearings process.
However, this is inefficient and time-consuming. As resources permit, ODAR should
consider automating the manual reports that are most beneficial and most frequently
used by its regional and hearing office management.

To assist ITAB in allocating resources to ODAR, we identified the benefits ODAR states
the proposals would have on its current MI. One of the primary concerns expressed by
ODAR was that current MI does not always allow executives to adequately plan for the
future or to measure the results of certain business processes. For example, ODAR
stated that it does not have sufficient MI to determine whether the backlog initiatives are
achieving the intended results.3 Without such a process, SSA may be expending
limited resources on initiatives that have no impact or a negative impact on the hearings
process. According to ODAR, the proposed Quality Performance Management System
(QPMS) Enhancements will provide the MI needed to determine whether the initiatives
are achieving the intended results. ITAB should give careful consideration to the
approval of the QPMS proposal. In the future, SSA should consider having an
independent assessment of the MI ODAR collects, with a focus on identifying areas
where weaknesses exist in providing information for strategic planning.

ODAR is requesting ITAB approval for a total of 236.10 work years in FY 2010 to
maintain existing systems and for 21 proposals.4 Under ITAB’s current plans, all
resource recipients, including ODAR, may only receive approximately the same number

3
  To eliminate the backlog and prevent its recurrence, SSA has several backlog initiatives underway. The
initiatives are outlined in the Plan to Eliminate the Backlog and Prevent Its Recurrence, which can be
found at http://mwww.ba.ssa.gov/appeals/Backlog_Reports/Annual_Backlog_Report_FY_2008-Jan.pdf

4
 A work year is a measure of work power equivalent to 1 FY of paid labor time to support the work of the
Agency and of the programs it administers (including paid non-duty time such as leave). For FY 2010, a
work year generally equates to $113,500 for SSA personnel and $126,700 for contractor personnel.


ODAR Management Information (A-07-09-29162)                                                            2
of work years in FY 2010 as they received in FY 2009. If this holds true, ODAR will
receive 159.75 work years. We did not review the ITAB proposals submitted by all
resource recipients. Therefore, we cannot opine on whether ODAR’s proposals are the
best use of ITAB’s resources. However, we are not sure that the decision to hold all
resource recipients to the FY 2009 level will result in the best use of limited resources,
since this approach assumes that the needs of the resource recipients remain the same
in FY 2010. ITAB should carefully consider the empirical cost and benefit data
supporting all proposals, including ODAR’s proposals.

ODAR’S ABILITY TO ELIMINATE THE BACKLOG
Regardless of whether ODAR’s FY 2010 proposals are approved, it appears SSA will
achieve the desired pending hearings level by FY 2013, based on the currently
projected level of receipts, due primarily to the hiring of additional ALJs. We examined
the workload ODAR would need to complete to process projected hearing requests and
reduce the number of pending hearings to the desired level of 466,000 by FY 2013. We
found that if SSA follows its current ALJ hiring plan, and the current average ALJ
productivity level of 2.29 dispositions per ALJ per day remains constant, ODAR’s
pending level should fall to about 460,000 by FY 2013. According to the current ALJ
hiring plan, SSA is hiring 157 ALJs who will come on duty in June and July 2009.5 In
addition, SSA plans to hire 208 ALJs in FY 2010.6 The timing of ALJ hiring will impact
ODAR’s ability to achieve its desired pending level by FY 2013. The Commissioner has
expressed concerns to the OPM Director that the ALJ register has not been updated for
SSA to hire the 208 ALJs in FY 2010. SSA should continue to work with OPM to ensure
ALJs are hired within the planned time frames.7 See Appendix C for details on our
examination of the workload ODAR would need to complete to process projected
hearing requests and achieve its desired pending level.

AVAILABLE MANAGEMENT INFORMATION
We identified MI available for officials to manage ODAR’s workload, reported shortfalls
in the available MI, and reported shortfalls in the use of the MI to manage effectively.
We found that ODAR has a considerable amount of MI available to monitor hearing
office and employee productivity as well as hearing offices’ progress toward meeting
productivity and processing time goals. ODAR has two main sources for MI: the Case
Processing and Management System (CPMS) and the Disability Adjudication Reporting

5
 Of the 157 ALJs, 97 will be hired above attrition, and the remaining 60 will replace ALJs SSA estimates
were lost due to attrition. The 157 ALJs includes 35 ALJs hired with funds provided to SSA by the
American Recovery and Reinvestment Act of 2009 (ARRA). Pub. L. No. 111-5, February 17, 2009.
6
 Of the 208 ALJs, 148 will be hired above attrition, and the remaining 60 will replace ALJs SSA estimates
will be lost due to attrition. SSA hopes to hire 25 to 50 new ALJs in October 2009 with the remainder
hired in July 2010.
7
  To hire ALJs, SSA submits a request to OPM, which provides a list of eligible candidates. SSA
interviews eligible candidates and submits selections to OPM for approval. OPM performs background
checks on the candidates.


ODAR Management Information (A-07-09-29162)                                                                3
Tools (DART) system. CPMS provides a comprehensive workload management
package with two functions: (1) Workload Control, which provides pending actions and
real-time workload information and (2) MI, which provides completed workload
information, updated nightly. We identified 71 reports available from the MI side of
CPMS. DART is an ad hoc reporting system providing users access to pending and
completed case information extracted daily from CPMS. We identified 66 MI reports
available in DART.

We interviewed management officials in four ODAR regional offices to identify concerns
or shortfalls with available MI in CPMS and DART.8 According to these interviews,
CPMS and DART provide sufficient MI for ODAR to monitor hearing office and
employee productivity. However, the ODAR regional officials we interviewed identified
18 shortfalls in existing MI and improvements to use MI more efficiently.9

For example, regional officials indicated the following.

     Some reports could be modified to better suit their needs, such as providing weekly
      rather than monthly reports, combining information from multiple reports, or
      providing the reports in Excel for easier sorting and filtering.
     Reports could be available in real time rather than as of the previous day to provide
      up-to-date MI.
     User specifications for reports, such as user-defined dates or data to include in the
      reports, could be improved.

To improve existing MI and address some of the shortfalls reported by the regional
offices, ODAR is requesting ITAB approval for 10 MI-related proposals.10 We reviewed
ODAR’s MI proposals, along with their potential impact on addressing the 18 shortfalls
identified in ODAR’s existing MI. According to ODAR, 4 of the 18 shortfalls will be
addressed with the approval of 3 of its MI proposals (see Appendix D, shortfalls
1 through 4). Specifically, ODAR stated the following with regard to each of these
three proposals.

     CPMS MI for FY 2010 will provide reports that focus on meeting weekly performance
      goals versus monthly goals, which will allow for better management of ODAR’s
      workload.
     QPMS Enhancements will provide the MI necessary to determine whether each of
      ODAR's backlog initiatives is achieving the intended results as well as determine
      whether all the initiatives are working collectively to significantly reduce the overall
      disability hearings backlog.

8
    The four ODAR regional offices contacted were Boston, Atlanta, Chicago, and Kansas City.
9
    See Appendix D for further details of these shortfalls.
10
 See Appendix E for a description of each proposal, how it will improve existing MI, and its impact on
ODAR’s ability to eliminate the backlog by FY 2013.


ODAR Management Information (A-07-09-29162)                                                              4
   CPMS Enhancements FY 2010 will integrate CPMS with other SSA systems and is
    critical to deriving the MI improvements in the QPMS proposal.

For the remaining 14 shortfalls, ODAR stated

   4 shortfalls warrant consideration for future MI proposals (see Appendix D,
    shortfalls 5 through 8),
   6 shortfalls will not be considered at this time because of resource limitations
    (see Appendix D, shortfalls 9 through 14), and
   4 shortfalls related to DART reports and may be addressed using existing resources
    since DART enhancements are not part of the ITAB process as are CPMS
    enhancements (see Appendix D, shortfalls 15 through 18).

According to our interviews with staff in the ODAR regional offices, several of these
shortfalls create inefficiencies in the oversight of the hearings process. To overcome
some of these inefficiencies, all four of the regional offices create additional MI reports
that allow them to better manage the hearings process. For example, using information
from CPMS and DART, the regional offices manually create additional reports in a
format that is more useful to regional office management. One such manually created
report allows regional office management to compare workloads among the hearing
offices in their region and track progress toward meeting hearing office targets. In one
regional office, two staff members spend 2 weeks each month manually creating reports
officials need to effectively manage the hearings process in the region.

It is inefficient for the regional offices to create manual reports. In fact, significant time
may be saved each month if the manual reports were automated in CPMS and DART.
As resources permit, ODAR should consider automating the manual reports that are
most beneficial and most frequently used by its regional and hearing office
management.

PROPOSALS RELATED TO MI

ODAR is requesting ITAB’s approval for 21 proposals, of which 10 proposals are related
to MI. We asked ODAR to explain how each of the 10 MI proposals will assist in
eliminating the backlog. Overall, ODAR expects the proposals will assist its efforts to
eliminate the hearings backlog and prevent its recurrence by providing MI needed to
(1) better manage the hearing workload thereby increasing productivity, (2) allow ODAR
to measure the effectiveness of the initiatives in reducing the backlog, and
(3) allow decisions earlier in the process thereby removing cases from the backlog.

To assist SSA in its ITAB process, we have identified the benefits ODAR states the
proposals would have on ODAR’s current MI (see Appendix E). For example, ODAR
states the proposal “CPMS MI for FY 2010” is expected to improve existing MI by
providing reports that focus on meeting weekly performance goals instead of monthly
goals thereby enabling ODAR to better manage its workload. Given the historical


ODAR Management Information (A-07-09-29162)                                                      5
problems with ODAR’s backlog of claims and lengthy processing times, better
management of its workload is warranted and may help prevent recurrence of the
backlog. Another proposal, “Health Information Technology (HIT) for ODAR,” is part of
ODAR’s plan for preparing to incorporate electronic medical evidence into its business
process.11 It is important for ODAR to prepare for HIT as it appears to be the avenue
for SSA to receive medical evidence in the future.

One of the primary concerns expressed by ODAR was that MI is not sufficient for ODAR
executives to perform strategic planning. Specifically, ODAR stated that current MI
does not always allow executives to adequately plan for the future or measure the
results of certain business processes. Strategic planning serves a variety of purposes
in an organization, such as assisting management in

     establishing goals and objectives consistent with the mission in a defined time frame
      and within the organization’s capacity for implementation;
     ensuring the most effective use is made of the organization’s resources by focusing
      them on key priorities;
     providing a base from which progress can be measured and establishing a
      mechanism for informed change when needed;
     providing a clearer focus of an organization, producing more efficiency and
      effectiveness and increased productivity; and
     solving major problems.

As an example of what ODAR considers to be insufficient MI, ODAR states that existing
MI provides limited information needed to determine whether the backlog initiatives are
achieving the intended results as well as determining whether the initiatives are working
together to reduce the backlog. Given the resources being expended on the backlog
initiatives, SSA should have a process to determine whether the initiatives are achieving
the intended results. Without such a process, SSA may be expending limited resources
on initiatives that have no, or even a negative, impact on the hearings process. If the
backlog initiatives are having a negative impact, they could minimize some of the
benefits of hiring additional ALJs and hinder ODAR’s ability to eliminate the hearing
backlog by FY 2013. According to ODAR, the ITAB proposal QPMS Enhancements will
provide the MI needed to determine whether the initiatives are achieving the intended
results.12 Therefore, SSA, through its ITAB process, should give careful consideration
to approving the QPMS proposal if it is proven to provide the MI needed to assess the
effectiveness of the backlog initiatives.

11
   Under the HIT initiative, SSA’s system will send an electronic medical request to the treating source.
Almost immediately, the treating source will electronically transmit the individual’s medical record. SSA
has already exchanged data with two providers and will continue to track the flow of data from those
providers. SSA plans to use approximately $24 million in funds provided by ARRA to contract with the
health care community to provide SSA with electronic health records to improve the speed and accuracy
of the disability determination process.
12
     We did not assess the subset of MI ODAR needs to measure the progress of its backlog initiatives.


ODAR Management Information (A-07-09-29162)                                                                 6
We did not analyze all MI collected by ODAR. Therefore, we cannot opine on its
completeness or effectiveness. However, executives should have the MI needed to
strategically plan the future of ODAR and solve or prevent major problems, such as
preventing the recurrence of the hearings backlog. SSA should consider having an
independent assessment of the MI ODAR collects with a focus on identifying areas
where weaknesses exist in providing MI to executives for strategic planning.

ITAB RESOURCES AVAILABLE
As previously stated, it appears that SSA will achieve the desired hearings pending
level by FY 2013 based on the currently projected level of receipts, if it follows its
current ALJ hiring plan and the current average ALJ productivity level remains constant.
Therefore, we do not see the proposals as critical to SSA’s achieving its desired
pending level. However, that does not mean the proposals are not important to prevent
recurrence of the backlog, improve current MI, or improve ODAR’s business processes.

ODAR is requesting ITAB’s approval for a total of 236.10 work years in FY 2010, which
represents 7 percent of the 3,596 work years available for all SSA FY 2010 ITAB
proposals (see Appendix F). The 236.10 work years consists of

     14.37 work years to maintain existing systems,
     128.63 work years for 10 proposals related to MI, and
     93.10 work years for 11 proposals not related to MI.

According to ITAB’s current plans, for FY 2010, resource recipients may only receive
approximately the same number of work years they received in FY 2009. If this holds
true, ODAR will receive 159.75 work years. Accordingly, ODAR will not receive 76.35 of
the work years it has requested.

There are various approaches to expend the limited ITAB resources available to ODAR.
If resources are expended based on ODAR’s ranking of the 21 proposals and approval
of the QPMS proposal, the 159.75 work years would allow ODAR to

       maintain existing systems (14.37 work years),
       proceed with the top 10 ranked proposals (135.66 work years), and
       proceed with QPMS Enhancements (6.60 work years).




ODAR Management Information (A-07-09-29162)                                             7
Using this approach, ODAR could use 94.10 work years to proceed with 6 of its
10 proposals related to MI and 48.16 work years to proceed with 5 of the 11 proposals
not related to MI as shown in the following table.

                                                                      FY 2010 Work
                         Proposals Related to MI
                                                                     Years Requested
        CPMS MI for FY 2010                                               18.48
        HIT for ODAR                                                      19.58
        ODAR Replacement Automated Call Order                             15.68
        CPMS Enhancements FY 2010                                         24.45
        Auto Scheduling 2010                                               9.31
        QPMS Enhancements Release 4                                        6.60
                                                             Total        94.10
                          Proposals Not Related to MI
        Desktop Video Units/Representative Video                           3.50
        ODAR Appeals Review Processing System for 2010 Release 5          16.78
        Enhancements for Findings Integrated Template/Document
                                                                          10.30
        Generation System FY 2010
        Electronic Certified Administrative Record Release 4               6.76
        Auto Scheduling Release 1                                         10.82
                                                             Total        48.16

We did not review the ITAB proposals submitted by all resource recipients. Therefore,
we cannot opine on whether ODAR’s proposals are the best use of ITAB’s resources.
However, we are not sure that the ITAB decision to hold all resource recipients to the
same work year levels as FY 2009 will result in the best use of limited resources, since
this approach assumes that the needs of the resource recipients remain the same in
FY 2010. We believe ITAB should carefully consider the empirical cost and benefit data
supporting all proposals, including ODAR’s proposals.




ODAR Management Information (A-07-09-29162)                                             8
                                 Matters for Consideration
To ensure SSA achieves the desired pending hearings level by FY 2013, SSA should
continue to work with OPM to ensure ALJs are hired within the planned time frames. To
address inefficiencies in existing MI, ODAR should consider automating the manual
reports that are most beneficial and most frequently used by its regional and hearing
office management.

To ensure ODAR executives have sufficient MI to adequately plan for the future and
measure the results of certain business processes, such as the backlog initiatives, ITAB
should give careful consideration to the approval of the QPMS proposal if it is proven to
provide the MI needed to assess the effectiveness of the backlog initiatives. In the
future, SSA should consider having an independent assessment of the MI ODAR
collects, with a focus on identifying areas where weaknesses exist in providing
information for strategic planning.

We did not review the ITAB proposals submitted by all resource recipients. Therefore,
we cannot opine on whether ODAR’s proposals are the best use of ITAB’s resources.
ITAB should carefully consider the empirical cost and benefit data supporting all
proposals, including ODAR’s proposals.




ODAR Management Information (A-07-09-29162)                                             9
                                         Appendices
APPENDIX A – Acronyms
APPENDIX B – Scope and Methodology
APPENDIX C – Ability to Eliminate Backlog by Fiscal Year 2013
APPENDIX D – Shortfalls in Management Information Reported by Regional Officials
APPENDIX E – Fiscal Year 2010 Management Information Technology Initiatives
APPENDIX F – Work Years Requested for Technology Proposals
APPENDIX G – OIG Contacts and Staff Acknowledgments




ODAR Management Information (A-07-09-29162)
                                                                    Appendix A

Acronyms
    ACTII             Audio Cassette Transcription Invoice and Inquiry
    AFS               Attorney Fee System
    ALJ               Administrative Law Judge
    ARPS              Appeals Review Processing System
    ARRA              American Recovery and Reinvestment Act of 2009
    CPMS              Case Processing and Management System
    DARES             Disability Adjudication Reporting and Evaluation System
    DART              Disability Adjudication Reporting Tools
    DCO               Deputy Commissioner for Operations
    DGS               Document Generation System
    DVU               Desktop Video Unit
    eCAR              Electronic Certified Administrative Record
    eCAT              Electronic Claims Analysis Tool
    FIT               Findings Integrated Template
    FY                Fiscal Year
    HIT               Health Information Technology
    IT                Information Technology
    ITAB              Information Technology Advisory Board
    MI                Management Information
    MTAS              Mainframe Time and Attendance System
    NDMIS             National Docketing and Management Information System
    ODAR              Office of Disability Adjudication and Review
    OIG               Office of the Inspector General
    OPM               Office of Personnel Management
    QPMS              Quality Performance Management System
    SLA               Service Level Agreement
    SSA               Social Security Administration
    VHR               Verbatim Hearing Recording




ODAR Management Information (A-07-09-29162)
                                                                                  Appendix B

Scope and Methodology
To achieve the objective of our review, we:

   Reviewed applicable laws and regulations and pertinent parts of the Hearings,
    Appeals, and Litigation Law Manual related to the Office of Disability Adjudication
    and Review’s (ODAR) management information (MI).

   Reviewed manuals, guides, and other documentation related to the Case
    Processing and Management System (CPMS) and the Disability Adjudication
    Reporting Tools system.

   Reviewed CPMS MI reports to obtain ODAR’s Fiscal Year (FY) 2009 workload
    statistics.

   Obtained details on ODAR’s FY 2010 Information Technology Advisory Board
    technology proposals.

   Interviewed the Deputy Commissioner for ODAR and officials in ODAR’s Office of
    Management; Office of the Chief Administrative Law Judge; and regional offices in
    Boston, Atlanta, Chicago, and Kansas City.

The entity reviewed was ODAR. Our work was conducted at the Office of Audit and
ODAR’s regional office in Kansas City, Missouri; ODAR’s Headquarters in Falls Church,
Virginia; and ODAR’s regional offices in Boston, Massachusetts; Atlanta, Georgia; and
Chicago, Illinois. We conducted our work from May through July 2009. We conducted
our review in accordance with the President’s Council on Integrity and Efficiency’s1
Quality Standards for Inspections.




1
  In January 2009, the President’s Council on Integrity and Efficiency was superseded by the Council of
the Inspectors General on Integrity and Efficiency, Inspector General Reform Act of 2008, Pub. L. No.
110-409 § 7, 5 U.S.C. App. 3 § 11.


ODAR Management Information (A-07-09-29162)
                                                                                    Appendix C

Ability to Eliminate Backlog by Fiscal Year 2013
We analyzed the Office of Disability Adjudication and Review’s (ODAR) ability to
eliminate the backlog by Fiscal Year (FY) 2013 based on the Social Security
Administration’s (SSA) plan to hire 157 administrative law judges (ALJ) in June and July
2009 and 208 ALJs in FY 2010.1 With these new ALJs, and if productivity levels and
currently projected level of receipts remain constant, we estimate ODAR will reach a
pending level below 466,000 cases by FY 2013, thus meeting SSA’s desired level.

                      FY 2009-2013 Workload with Planned ALJ Hires
      Fiscal Year               2009      2010       2011      2012                          2013
                         2
      Projected Receipts       641,000   698,000    736,000  699,000                       670,000
                     3
      ALJs Available          1,066.32 1,198.00 1,315.99 1,327.05                          1,327.05
                       4
      ALJ Dispositions         610,470   685,855    753,402  759,738                       759,738
      Attorney Dispositions5    35,348    35,348     35,348   35,348                         35,348
      Total Dispositions       645,818   721,203    788,750  795,086                       795,086
                         6
      Beginning Pending        760,813   755,995    732,792  680,042                       583,956
                       7
      Closing Pending          755,995   732,792    680,042  583,953                       458,870

1
 Of the new ALJ hires, 97 ALJs will be hired above attrition in FY 2009 and 148 ALJs will be hired above
attrition in FY 2010. SSA assumes 60 ALJs will be lost each year due to attrition but will be replaced. For
FY 2010, SSA hopes to hire 25 to 50 ALJs in October 2009 and the remainder in July 2010.
2
    Projected receipts (requests for hearing) were based on the FY 2010 President’s budget assumptions.
3
  ODAR computes ALJ availability to account for factors such as leave, details, or a new ALJ’s learning
curve. We estimated the average number of ALJs available to process cases each year, taking ALJ
attrition and hiring into consideration. Specifically, we applied ODAR’s assumption that 60 ALJs would be
lost each year due to attrition but would be replaced. We also took ODAR’s 9-month learning curve into
consideration when estimating the availability of new ALJs. Once the learning curve was completed, we
assumed new ALJs were available at the same rate as experienced ALJs. This approach for estimating
available ALJs is similar to that followed by SSA’s Office of Budget when preparing its budget.
4
 For each FY, we calculated the number of ALJ dispositions by multiplying the number of ALJs available
by the FY 2009 (as of May) average of 2.29 dispositions per available ALJ per day and a 250-day work
year (historically most FYs have 250 work days). In addition, we assumed any initiatives that enabled
ALJs to reach a productivity level of 2.29 dispositions per available ALJ per day would continue through
FY 2013.
5
 We calculated the number of attorney dispositions by multiplying the FY 2009 (as of May) daily average
of 141.39 dispositions for all attorney adjudicators combined by a 250-day work year. ODAR expects
attorney adjudicators to issue the same number of dispositions each year through FY 2013.
6
 At the beginning of FY 2009, 760,813 cases were pending at ODAR. The beginning pending levels for
FYs 2010 through 2013 are equal to the closing pending levels for the prior FYs.
7
 We calculated closing pending by adding projected receipts to the beginning pending level and
subtracting total dispositions for each FY.


ODAR Management Information (A-07-09-29162)
                                                                                  Appendix D

Shortfalls in Management Information Reported
by Regional Officials
We interviewed management officials in 4 of the Office of Disability Adjudication and
Review’s (ODAR) 10 regions to identify concerns with available management
information (MI). Specifically, the regional officials identified shortfalls in the MI
available in the Case Processing and Management System (CPMS) and Disability
Adjudication Reporting Tools (DART) system. According to ODAR, four of the shortfalls
identified may be addressed by a Fiscal Year (FY) 2010 ODAR Information Technology
Advisory Board (ITAB) proposal.1

                         Shortfalls in MI and Related MI Proposal
                                        Proposal That Will    ODAR’s Response to
                  Shortfall
                                        Address Shortfall         Shortfall
     CPMS reports could be enhanced to      CPMS Enhancements         The proposal will create an
     include time and attendance            FY 2010 (Appendix E,      application (or incorporate the
     information so management can          Item 4)                   Mainframe Time and Attendance
     easily compare an employee’s                                     System [MTAS] Hours application)
     workload with the amount of time                                 to pull work hour data from
     actually worked.                                                 MTAS/WebTA and provide a
                                                                      standardized automated method
                                                                      for input of hearing office Monthly
                                                                      Activity Hours and Counts
1                                                                     Collection information with data
                                                                      integrity consistent throughout
                                                                      ODAR using data directly from
                                                                      ODAR’s timekeeping system(s).
                                                                      Given the complexity of this
                                                                      request and the large number of
                                                                      work years that would be needed,
                                                                      ODAR is conducting planning and
                                                                      analysis for FY 2010 to determine
                                                                      viable options.
     There is currently no MI available     CPMS MI for FY 2010       ODAR has some existing weekly
     with weekly workloads.                 (Appendix E, Item 1)      reports, and this initiative is simply
2
                                                                      expanding the number of those
                                                                      reports.




1
  Throughout this Appendix we refer to these as proposals. See Appendix E for additional information on
the proposals.


ODAR Management Information (A-07-09-29162)                                                       D-1
                        Shortfalls in MI and Related MI Proposal
                                       Proposal That Will    ODAR’s Response to
                 Shortfall
                                       Address Shortfall         Shortfall
    CPMS and DART reports do not              CPMS MI for            This is being developed through
    include target information, such as        FY 2010                the application Disability
    what the targets are and where the         (Appendix E, Item 1)   Adjudication Reporting and
    region is in meeting those targets.       Quality Performance    Evaluation System (DARES).
                                               Management             ODAR has implemented the Web-
                                               System                 based Backlog Reduction
3                                              Enhancements           Initiatives Dashboard (a graphical
                                               Release 4              experience) or Bridge that will be
                                               (Appendix E, Item 7)   linked to DARES to provide high-
                                              CPMS                   level MI. The Office of Systems, in
                                               Enhancements           partnership with ODAR and the
                                               FY 2010                Office of Quality Performance, is
                                               (Appendix E, Item 4)   developing DARES.
    Some CPMS and DART reports are           CPMS MI for FY 2010      Performance issues have been
    very slow to run, especially toward      (Appendix E, Item 1)     caused in large part by workload
    the end of the month.                                             imbalances during the last week of
                                                                      the month. ODAR thinks this will
4                                                                     be improved once the MI reports
                                                                      are available weekly. There is an
                                                                      existing project to look at systems
                                                                      performance issues, not part of the
                                                                      ITAB process using robotics.
    Regions would like to see any data       Not Applicable           This is going to occur with some
    that may affect a case propagated                                 queries, where the queries will
    into CPMS, such as earnings data,                                 automatically be uploaded to the
    death information, time spent out of                              electronic folder and is in FY 2009
5
    the country, incarceration data.                                  ITAB submissions. Some of the
                                                                      other items have not been
                                                                      requested and appear to be good
                                                                      ideas to explore in the future.
    Regions would like the manual logs       Not Applicable           Given that ODAR has four unions,
    used to track flexiplace cases                                    all with separate flexiplace
6   automated.                                                        agreements, changes cannot be
                                                                      made until or unless contracts are
                                                                      renegotiated.
    In some situations, hearing offices      Not Applicable           ODAR has met with the Deputy
    do not receive a request for hearing                              Commissioner for Operations
    until the case has already become                                 (DCO), and DCO is pursuing some
    aged, eliminating the region’s ability                            systems fixes to ensure that
7   to process the case in its processing                             requests for hearing do not
    time goal. Regions would like a way                               languish in a field office, and they
    to identify these cases so they do not                            are pursuing some systems
    reflect negatively on the hearing                                 changes to prevent cases from not
    office or region.                                                 being inadvertently held.
    Status codes for workup contract         Not Applicable           The status code for workup
    pulling and temporary transfers out                               contract pulling is still being used,
    for decision typing could be                                      and ODAR can explore eliminating
8   eliminated to reduce the chance for                               the status code for temporary
    inaccurate data inputs.                                           transfers out for decision typing,
                                                                      which is rarely used because
                                                                      decisions are rarely dictated.




ODAR Management Information (A-07-09-29162)                                                      D-2
                         Shortfalls in MI and Related MI Proposal
                                        Proposal That Will    ODAR’s Response to
                  Shortfall
                                        Address Shortfall         Shortfall
     Regions would like the flexiplace        Not Applicable   There was a separate proposal for
     status codes in CPMS enhanced to                          FY 2010 to address flexiplace
     enable them to track the time a case                      management. However, it was
     is worked at the flexiplace location                      removed from the FY 2010
9
     and the time the case is worked in                        proposals because of resource
     the hearing office. According to the                      limitations.
     region, the time is currently
     combined on MI reports.
     For reports provided to regions by       Not Applicable   This is something that has been
     the Office of the Chief Administrative                    explored in the past but is
     Law Judge, the regions would like to                      extremely labor intensive and
10   be able to drill down to the hearing                      would expend a large amount of
     office level to obtain specific                           resources and that is why it has
     information on targets, etc. for each                     not been provided.
     office.
     CPMS and DART reports could be           Not Applicable   ODAR has not included this
     enhanced to allow users to establish                      formally in any proposals and has
     “preferences” or “favorites” with only                    raised the issue, however, with the
     the parameters or fields that the user                    Office of Systems on several
     specifies. Once established, the                          occasions but have been
11   user selects their “preference” or                        informally told that this would be
     “favorite” to obtain a report with the                    very labor intensive and expend a
     desired information. This                                 large number of systems work
     functionality may also decrease the                       years. However, as a result of
     time it takes for the report to load                      DART updates, users can mark
     since fewer fields will be pulled in.                     reports/listings as favorites.
     Regional office management would         Not Applicable   ODAR has this existing
     like CPMS and DART summary                                functionality in many of the CPMS
     reports that include the summary                          MI reports (e.g. Workload
     information for each hearing office                       Summary by Status, Monthly
12   within the region. Currently,                             Activity Report, etc.).
     management must access a report
     for each hearing office to make
     comparisons among the hearing
     offices within the regions.
     Management would like to see the         Not Applicable   ODAR has formally included this
     summary information available in                          item in several ITAB submissions,
     real-time rather than viewing day-old                     but the primary issue is a
     data.                                                     significant risk of decreased
                                                               systems performance. Although it
13
                                                               would be beneficial to have this,
                                                               the return on investment appears
                                                               to be limited and it would take a
                                                               significant amount of resources to
                                                               make this happen.
     Management would like to have one        Not Applicable   DART gives users the ability to
     place to access MI, rather than going                     create some MI reports that would
     to CPMS for some reports and                              not otherwise be available and
14
     DART for other reports.                                   allows ODAR to develop
                                                               applications without relying on
                                                               Office of Systems’ resources.




ODAR Management Information (A-07-09-29162)                                              D-3
                         Shortfalls in MI and Related MI Proposal
                                        Proposal That Will    ODAR’s Response to
                  Shortfall
                                        Address Shortfall         Shortfall
     Some DART reports are only
     available in Adobe or HTML format,
15   making it difficult for the Region to
     import data into Excel to perform
     further analysis on the data.
     Some DART reports that allow users
     to enter specific dates for the report
     should also have the option to select
     from ODAR’s reporting months.                             ODAR did not address shortfalls
     Since ODAR’s reporting months are                         relating to any of the DART reports
16
     not identical to the calendar months,                     because those reports are created
     users wanting monthly data may pull                       by ODAR and are not part of the
     in excess or incomplete data by          Not Applicable   ITAB process. As a result of
     entering an incorrect starting or                         DART updates, users can see all
     ending date for a month.                                  representatives’ schedules (see
     Other DART reports do not allow the                       shortfall 18).
     user to enter a specific date.
17
     Instead, the report is only available
     as of the current date.
     DART reports showing
     representatives’ schedules only
     display hearings scheduled for the
18
     user’s region and do not allow the
     user to view the representatives’
     hearings scheduled in other regions.




ODAR Management Information (A-07-09-29162)                                              D-4
                                                                                     Appendix E

Fiscal Year 2010 Management Information
Technology Initiatives
The Office of Disability Adjudication and Review (ODAR) is requesting resources to be
allocated to 21 Fiscal Year (FY) 2010 Information Technology Advisory Board (ITAB)
proposals.1 Of the 21 proposals, 10 are directly related to improving ODAR’s
management information (MI) as shown in Table 1. For these proposals, ODAR
provided information on how each proposal will improve MI and assist in eliminating the
backlog. According to ODAR, the other 11 proposals are related to improving existing
ODAR systems or processes (see Table 2).

                                           Table 1
                          FY 2010 Technology Proposals Related to MI
                                                 How will the    How will the proposal
        Proposal
                             Description      proposal improve    assist in eliminating
          Title
                                                    MI?              the backlog?
      Case               This proposal will improve   This template contains    Better management of the
      Processing and     existing CPMS MI by          numerous elements         workload should lead to
      Management         providing reports that       that are critical to      higher productivity,
      System (CPMS)      focus on meeting weekly      developing                although it would be difficult
      MI for FY 2010     performance goals and        comprehensive MI for      to attempt to quantify the
      (to be             support for creating         ODAR. There are           cumulative impact of all
      considered in      customized MI reports.       many changes here,        these items.
      conjunction with   Enhancements will            but the primary item is
      CPMS               include providing new        changing the MI reports
      Enhancements       quality review reports and   from monthly to weekly,
      FY 2010, Item 4    improving the accuracy of    which will focus
      in this table)     existing reports.            attention on meeting
1
                                                      weekly goals and help
                                                      eliminate some of the
                                                      systems problems often
                                                      experienced at the end
                                                      of the month. Other
                                                      items will enable ODAR
                                                      to better manage its
                                                      workload. Moving to
                                                      weekly workload
                                                      reporting is a
                                                      Commissioner backlog
                                                      elimination initiative.




1
    Throughout this appendix we refer to these as proposals.


ODAR Management Information (A-07-09-29162)                                                             E-1
                                      Table 1
                     FY 2010 Technology Proposals Related to MI
                                            How will the    How will the proposal
      Proposal
                        Description      proposal improve    assist in eliminating
        Title
                                               MI?              the backlog?
    Health           This proposal will address   There is limited MI on        If this can better identify
    Information      changes required to          what types of                 cases with a high
    Technology       incorporate electronic       impairments are               probability of reversal, it
    (HIT) for ODAR   health records into          generally allowed at the      could have a significant
                     ODAR’s business              hearing level, and this       impact on the backlog by
                     process. The changes         initiative has the            enabling ODAR to make
                     will use electronic          potential to offer much       on-the-record decisions
                     information to facilitate    more MI than ODAR             without the need for a
                     case screening and           currently has to              hearing.
                     developing a quick           evaluate trends and
                     disability decision          identify cases that are
2
                     analysis tool.               most likely to be
                                                  allowances. It will also
                                                  provide data on project-
                                                  specific items, such as
                                                  how many cases
                                                  include HIT medical
                                                  evidence of record, how
                                                  it affected processing
                                                  time, and whether it
                                                  provides an effective
                                                  screening tool.
    ODAR             Call orders are required     This is a critical item. It   Productivity gains would
    Replacement      for medical experts,         will provide additional       result in the scheduling
    Automated Call   vocational experts, and      MI on the use of              process as call orders are
    Order            verbatim hearing             experts and other             used on virtually every
                     recording (VHR)              contractors, as well as       case. Replacement is
                     contractors. The             staff availability and        necessary given that
                     proposal would replace       funding.                      ODAR’s existing system is
                     ODAR's existing                                            nearing the end of its life-
                     automated call order                                       cycle.
3                    system that is no longer
                     supported by the
                     developers. The new
                     system will provide
                     management reports
                     related to the cost of
                     ODAR's use of medical
                     experts, vocational
                     experts, and VHR
                     contractors.




ODAR Management Information (A-07-09-29162)                                                             E-2
                                        Table 1
                       FY 2010 Technology Proposals Related to MI
                                              How will the    How will the proposal
      Proposal
                          Description      proposal improve    assist in eliminating
        Title
                                                 MI?              the backlog?
    CPMS               This proposal is to          Some of these items        The total impact of all the
    Enhancements       integrate CPMS with          could enable ODAR to       various items could be
    FY 2010 (to be     other Social Security        manage the workload        significant and result in
    considered in      Administration (SSA)         better. Historically,      greater productivity and
    conjunction with   systems to reduce the        CPMS templates deal        subsequently enable ODAR
    CPMS MI for        need for manual key          with the front-end of      to more effectively deal with
    FY 2010, Item 1    entry and to assist in       CPMS and the CPMS          the backlog.
    in this table)     ODAR’s implementation        MI deals with the back
                       of a standardized            end, meaning that it
                       business process.            uses the data entered
                       Additional enhancements      on the front-end.
4
                       will include multiple time   These front-end
                       saving improvements,         enhancements are
                       such as avoiding             critical in deriving the
                       duplicate work efforts by    MI identified in the
                       identifying cases that       proposal CPMS MI for
                       have been screened for       FY 2010 (see Item 1 in
                       on-the-record decisions.     this table). It also
                                                    contains the items
                                                    necessary to develop
                                                    in-line quality
                                                    assurance.
    Auto Scheduling    ODAR plans to develop a      Auto scheduling will not   The scheduling of hearings
    2010               system to electronically     improve ODAR's             is almost entirely manual,
                       schedule hearings with       existing MI. Any MI        and this software has the
                       business partners such       generated will be to       potential to significantly
                       as claimant                  measure the impact of      improve the ability to
                       representatives and          the initiative on such     schedule more hearings
                       medical experts.             areas as the number of     and hold more hearings by
                                                    hearings scheduled, the    using an automated
                                                    postponement rate, and     calendar function to
5
                                                    the reasons for            schedule hearing sites,
                                                    postponements. These       expert witnesses, contract
                                                    are critical data          hearing reporters, and
                                                    elements when              judges. It is a very critical
                                                    projecting future          piece of reducing the
                                                    performance.               hearings backlog. This is
                                                                               high on the priority list to
                                                                               eliminate a labor-intensive
                                                                               manual process.




ODAR Management Information (A-07-09-29162)                                                            E-3
                                       Table 1
                      FY 2010 Technology Proposals Related to MI
                                             How will the    How will the proposal
      Proposal
                         Description      proposal improve    assist in eliminating
        Title
                                                MI?              the backlog?
    Electronic        E-cat is a Web-based            ODAR expects to              Limited impact on
    Claims Analysis   application designed to         introduce eCAT               eliminating the backlog
    Tool (eCAT)       assist the adjudicator and      functionality in a limited   since ODAR expects to
    Release 6.0       aid in documenting,             number of hearing            introduce eCAT
                      analyzing, and                  offices to allow ODAR        functionality in a limited
                      adjudicating the disability     to become familiar with      number of hearing offices.
6
                      claim in accordance with        this functionality. It
                      SSA regulations. The            should provide high
                      proposal would increase         level MI on decisional
                      the functionality and           accuracy and task
                      usability of eCAT.              times, including
                                                      decision writing.
    Quality           This proposal addresses         This is a critical item      It is critical to measure the
    Performance       various QPMS                    that will allow ODAR to      effectiveness of the backlog
    Management        Enhancements needed to          track the impact of all      initiatives in reducing the
    System (QPMS)     automate the                    the backlog initiatives.     backlog of cases.
    Enhancements      measurement of ODAR's           Additional functionality
    Release 4         productivity compared to        is necessary and
                      established performance         critical. This template
                      measures.                       not only allows ODAR
                      Enhancements will               to track current
                      provide MI needed to            progress, provides
7
                      assess whether each of          critical data needed to
                      ODAR's backlog                  assess the ability to
                      initiatives is achieving the    meet future goals.
                      intended results as well
                      as determine whether all
                      the initiatives are working
                      collectively to significantly
                      reduce the overall
                      national disability
                      hearings backlog.




ODAR Management Information (A-07-09-29162)                                                               E-4
                                       Table 1
                      FY 2010 Technology Proposals Related to MI
                                             How will the    How will the proposal
      Proposal
                         Description      proposal improve    assist in eliminating
        Title
                                                MI?              the backlog?
    Audio Cassette    ODAR uses ACTII to             This is an Office of         Given ODAR’s impending
    Transcription     track the status and           Appellate Operations         upgrade of the operating
    Invoice and       location of audio              item to eliminate two        system and the fact these
    Inquiry (ACTII)   cassettes containing the       stand-alone database         applications may not work
    and Attorney      transcripts of hearings.       applications. Given          in the new environment,
    Fee System        ODAR uses AFS to track         ODAR’s impending             this is a critical item, even
    (AFS)             both fee petitions and fee     upgrade of the               though it does not
    Conversion        agreements in cases at         operating system and         specifically relate to
                      the hearing level or           the fact these               reducing the backlog.
8                     higher. The proposal           applications may not
                      would upgrade the ACTII        work in the new
                      and AFS systems to             environment, this is a
                      ensure they continue to        critical item, even
                      work with SSA's changing       though it does not
                      computer network.              specifically relate to
                                                     reducing the backlog.
                                                     This item has initiative-
                                                     specific MI as opposed
                                                     to enterprise-wide MI.
    Conversion of     FIT is a Commissioner’s        Impact on MI would be        Impact on eliminating the
    the Findings      initiative that includes       limited given that this is   backlog would be limited
    Integrated        more than 1,700 decision       strictly a planning and      given that this is strictly a
    Templates (FIT)   templates designed to          analysis template,           planning and analysis
    and Document      improve the quality and        meaning that ODAR will       template.
    Generation        consistency of                 not receive any
    System (DGS)      administrative law judge       additional functionality
    Into a Web-       decisions. DGS                 at this point, but once a
    Based             processes text                 new system is
    Application       information to generate        developed, there are
                      standard notices to            many uses for MI that
                      claimants and other            do not currently exist.
                      parties. The proposal          The future development
9
                      includes development of        effort is expected to
                      a Web-based tool that          greatly enhance
                      allows claimant                ODAR’s MI since the
                      representatives to submit      new format will allow
                      proposed hearing               ODAR to mine data on
                      decisions and supports         overall aspects of the
                      hearing office employees’      hearing decisions.
                      ability to work at alternate
                      duty stations. The
                      system will be integrated
                      with CPMS and include
                      MI related to notices or
                      decisional outcomes.




ODAR Management Information (A-07-09-29162)                                                                E-5
                                     Table 1
                    FY 2010 Technology Proposals Related to MI
                                           How will the    How will the proposal
       Proposal
                       Description      proposal improve    assist in eliminating
         Title
                                              MI?              the backlog?
     CPMS MI       This proposal will           This is a carryover           There would be some
     Release 10    enhance existing CPMS        template and these            productivity gains as much
                   MI reports to include case   items have the potential      time is spent by managers
                   pending and disposition      to improve CPMS by            going between workload
                   information, additional      offering things that          listings, CPMS MI, and
                   information to track the     ODAR has requested            DART. Better MI improves
                   use of state and local       for several years.            the productivity of ODAR’s
                   video hearing networks to    Many of these gaps,           managers and provides
10                 conduct SSA video            however, have been            greater accountability.
                   hearings, and                filled, at least in part by
                   comprehensive MI related     Disability Adjudication
                   to remands.                  Reporting Tools
                                                (DART) reports so the
                                                overall impact would be
                                                limited and the priority
                                                is low, relative to some
                                                of the other items.




ODAR Management Information (A-07-09-29162)                                                        E-6
                                      Table 2
                   FY 2010 Technology Proposals Not Related to MI
        Proposal Title                          Description
     Desktop Video Units     Implement DVUs to be used in administrative law judges’ offices, field
     (DVU)/Representative    offices, and external sites to reduce the need for new hearing rooms,
1
     Video                   reduce travel costs, and provide claimants more access to hearing
                             proceedings.
     ODAR Appeals            Enhancements and upgrades to ARPS that will allow the Appeals Council
     Review Processing       to more efficiently process electronic claims at both the Appeals Council
2
     System (ARPS) for       and Federal Court levels.
     2010 Release 5
     Enhancements for        Increase the functionality available in FITS and DGS to provide additional
3
     FIT/DGS FY 2010         automation, improve decision and notice quality, and increase productivity.
     Electronic Certified    The U.S. District Court requires that a certified copy of the administrative
     Administrative Record   record be filed with the Federal court when SSA files its answers to a
     (eCAR) Release 4        complaint challenging the denial of benefits. The eCAR will allow SSA to
                             accomplish this within the electronic folder. The Office of Appellate
4
                             Operations within ODAR is responsible for preparing the certified
                             administrative record. The proposal would enhance eCAR functionality,
                             address court redaction requirements, and allow fully electronic filing of
                             records to the courts.
     Auto Scheduling         Allow hearing offices to schedule hearings electronically with business
5
     Release 1               partners, including claimant representatives and experts.
     Service Level           Identifies and implements ODAR SLAs for Electronic Disability to track
6    Agreement (SLA) for     goals such as system availability, response time, and problem
     ODAR                    management customer service.
     Transferring National   NDMIS consists of identification information about a variety of
     Docketing and MI        administrative and civil litigation and communications that may result, or
     System (NDMIS) to       has resulted, in litigation brought against, or by, SSA. The proposal
7
     OS                      facilitates Office of General Counsel transfer of NDMIS to the Office of
                             Systems to develop interfaces with other Agency applications and be
                             consistent with seamless processing.
     Automated Noticing      Develop a process to automatically create and centralize mail notices and
8                            other correspondence using CPMS.
     Compact Disc Burning    Increase bandwidth to reduce ODAR offices’ network slowdowns, improve
9    Network Performance     operations, and allow users more time to complete other tasks.

     ePulling 2010           Plan and implement national rollout of ePulling software ensuring
10
                             performance is maintained at a level that meets the users’ needs.
     ODAR Case               The ePulling initiative involves customized software that can classify
     Preparation             documents, pull out page-level data, identify potential duplicates, and
11                           sequentially number pages in a document. The proposal involves
                             continuing the integration and piloting of the ePulling software ensuring
                             performance is maintained at levels that meet users’ needs.




ODAR Management Information (A-07-09-29162)                                                         E-7
                                                                       Appendix F

Work Years Requested for Technology
Proposals
The Office of Disability Adjudication and Review (ODAR) is requesting the Social
Security Administration (SSA) Information Technology Advisory Board’s (ITAB) approval
for a total of 236.10 work years in Fiscal Year (FY) 2010, which represents 7 percent of
the 3,596 work years available for all SSA FY 2010 proposals. The 236.10 work years
consists of

     14.37 work years to maintain existing systems,

     128.63 work years for 10 proposals related to MI, and

     93.10 work years for 11 proposals not related to MI.

According to ITAB’s current plan, in FY 2010, resource recipients may only receive
approximately the same number of work years they received in FY 2009. If this holds
true, ODAR will receive 159.75 work years. Accordingly, ODAR will not receive 76.35 of
the work years it has requested.

There are various approaches to expend the limited ITAB resources available to ODAR.
If resources are expended based on ODAR’s ranking of the 21 proposals and approval
of the QPMS proposal, the 159.75 work years would allow ODAR to

       maintain existing systems (14.37 work years),

       proceed with the top 10 ranked proposals (135.66 work years), and

       proceed with QPMS Enhancements (6.60 work years).

Using this approach ODAR could use

       94.10 work years to proceed with 6 of its 10 proposals related to management
        information (MI) (see table on the following page, yellow highlighted proposals)
        and

       48.16 work years to proceed with 5 of the 11 proposals not related to MI (see
        table on the following page, green highlighted proposals).




ODAR Management Information (A-07-09-29162)                                             F-1
                   Work Years Requested for ODAR ITAB Proposals
ODAR’s                                                                        Work Years Requested
 ITAB                              Proposal Title                              FY      FY
Ranking                                                                                      Total
                                                                              2010    2011
           Case Processing and Management System (CPMS)
           Management Information for FY 2010 (to be considered in
    1                                                                          18.48     6.90    25.38
           conjunction with CPMS Enhancements FY 2010, Item 5 in this
           table)
    2      Health Information Technology for ODAR                              19.58     0.00    19.58
    3      ODAR Replacement Automated Call Order                               15.68     0.00    15.68
           CPMS Enhancements FY 2010 (to be considered in conjunction
    4                                                                          24.45     40.7    65.15
           with CPMS MI for FY 2010, Item 1 in this table)
   5       Desktop Video Units/Representative Video                             3.50     3.25     6.75
   6       ODAR Appeals Review Processing System for 2010 Release 5            16.78     9.28    26.06
           Enhancements for the Findings Integrated Templates (FIT) and
   7                                                                           10.30     3.40    13.70
           Document Generation System (DGS) FY 2010
   8       Electronic Certified Administrative Record Release 4                 6.76     0.00     6.76
   9       Auto Scheduling Release 1                                           10.82     0.00    10.82
   10      Auto Scheduling 2010                                                 9.31     0.00     9.31
   11      Electronic Claims Analysis Tool Release 6.0                         12.48     0.00    12.48
   12      QPMS Enhancements Release 4                                          6.60     0.07     6.67
           Audio Cassette Transcription Invoice and Inquiry and Attorney
   13                                                                          13.90     0.00    13.90
           Fee System Conversion
   14      Service Level Agreement for ODAR                                     6.16     5.00    11.16
           Transferring National Docketing and MI System to the Office of
   15                                                                           6.48     0.00     6.48
           Systems
   16      Automated Noticing                                                   9.85     4.10    13.95
   17      Conversion of FIT/DGS into a Web-Based Application                   7.95     0.00     7.95
   18      Compact Disc Burning Network Performance                             5.20     0.00     5.20
   19      ePulling 2010                                                       17.00     0.00    17.00
   20      ODAR Case Preparation                                                0.25     0.00     0.25
   21      CPMS MI Release 10                                                   0.20     0.00     0.20
                                                                      Total   221.73    72.70   294.43

             Under the illustrated approach:
             ODAR could proceed with yellow highlighted proposals related to MI
             ODAR could proceed with green highlighted proposals not related to MI
             ODAR could not proceed with purple highlighted proposals related to MI
             ODAR could not proceed with blue highlighted proposals not related to MI




ODAR Management Information (A-07-09-29162)                                                      F-2
                                                                     Appendix G

OIG Contacts and Staff Acknowledgments
OIG Contacts
   Mark Bailey, Director, Kansas City Audit Division

   Shannon Agee, Audit Manager

Acknowledgments
In addition to those named above:

   Ken Bennett, IT Specialist

   Tonya Eickman, Senior Auditor

For additional copies of this report, please visit our web site at
www.socialsecurity.gov/oig or contact the Office of the Inspector General’s Public
Affairs Specialist at (410) 965-3218. Refer to Common Identification Number
A-07-09-29162.




ODAR Management Information (A-07-09-29162)
                            DISTRIBUTION SCHEDULE

Commissioner of Social Security
Office of Management and Budget, Income Maintenance Branch
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Committee on the Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Oversight and Government
Reform
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security Pensions
and Family Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
                         Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of an Office of Audit (OA), Office of Investigations
(OI), Office of the Counsel to the Inspector General (OCIG), Office of External Relations (OER), and Office of
Technology and Resource Management (OTRM). To ensure compliance with policies and procedures, internal
controls, and professional standards, the OIG also has a comprehensive Professional Responsibility and Quality
Assurance program.
                                                  Office of Audit
OA conducts financial and performance audits of the Social Security Administration’s (SSA) programs and
operations and makes recommendations to ensure program objectives are achieved effectively and efficiently.
Financial audits assess whether SSA’s financial statements fairly present SSA’s financial position, results of
operations, and cash flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s
programs and operations. OA also conducts short-term management reviews and program evaluations on issues
of concern to SSA, Congress, and the general public.
                                              Office of Investigations
OI conducts investigations related to fraud, waste, abuse, and mismanagement in SSA programs and operations.
This includes wrongdoing by applicants, beneficiaries, contractors, third parties, or SSA employees performing
their official duties. This office serves as liaison to the Department of Justice on all matters relating to the
investigation of SSA programs and personnel. OI also conducts joint investigations with other Federal, State,
and local law enforcement agencies.
                            Office of the Counsel to the Inspector General
OCIG provides independent legal advice and counsel to the IG on various matters, including statutes,
regulations, legislation, and policy directives. OCIG also advises the IG on investigative procedures and
techniques, as well as on legal implications and conclusions to be drawn from audit and investigative material.
Also, OCIG administers the Civil Monetary Penalty program.
                                        Office of External Relations
OER manages OIG’s external and public affairs programs, and serves as the principal advisor on news releases
and in providing information to the various news reporting services. OER develops OIG’s media and public
information policies, directs OIG’s external and public affairs programs, and serves as the primary contact for
those seeking information about OIG. OER prepares OIG publications, speeches, and presentations to internal
and external organizations, and responds to Congressional correspondence.
                           Office of Technology and Resource Management
OTRM supports OIG by providing information management and systems security. OTRM also coordinates
OIG’s budget, procurement, telecommunications, facilities, and human resources. In addition, OTRM is the
focal point for OIG’s strategic planning function, and the development and monitoring of performance
measures. In addition, OTRM receives and assigns for action allegations of criminal and administrative
violations of Social Security laws, identifies fugitives receiving benefit payments from SSA, and provides
technological assistance to investigations.
